u
nry—

3
\

r-

‘

f I

No.
\

IN THE

r

SUPREME COURT OF THE UNITED STATES

SEP 0 9 2220
Qf=&Cr r - '

\

kftrtilggfcl NCduS)^
— PETITIONER
(Your Name)
vs.
f/Jz/ItTZi

QbM

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

/jtz&D

Qe fjiPP£/k£

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

KprttU&Af Uc/lajaTAj/
(Your Name)

Jofy- fcfzuwv/tuOZUS D/^l£
(Address)

(City, State, Zip Code)

(Phone Number)

° F

T 1

LIST OF PARTIES

[/All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

STATEMENT OF ISSUES FOR WRIT OF CERTIORI
Petitioner Kathleen McCullough (“Petitioner”) is appealing the 6-11-2020 final order
issued by J. Jordan, Krause and Matey of the US 3rd Circuit Court of Appeals Said order
is attached in Appendix 1, Petitioner’s Docket for Case No. 20-1378.

It states that

Petitioner’s filing was untimely and that she did not provide an arguable basis for equitable
tolling.
To address the equitable tolling from 2-2-2017, through 2-25-2017; 4-11-2017 through 419-2017 and 6-2-2017 through 8-17-2018, Petitioner was illegally incarcerated by her
PCRA factfinder, J. Philip Ignelzi. Petitioner was illegally arrested when she obtained the
attached statements of financial interest which proved that J. Ignelzi had received “gifted”
2 lines of credits from PNC Bank, at 2.99 & 3 percent the same year that he accepted
Petitioner’s 2013 case; the rest of J. Ignelzi’s creditors far exceeded these rates between 8
percent to as high as 24 percent. Please see Appendix 2. J Ignelzi’s SOFI.

During the 2-2017 incarceration, Petitioner J. Ignelzi threatened that if she continued to
represent herself, she would be found mentally incompetent. T2he Third Circuit did not
find Petitioner’s illegal incarceration an arguable issue concerning equitable tolling for
which egregious miscarriages of justice are exceptions, to the equitable tolling issues.
Therefore, Petitioner submits the following egregious miscarriages of justice:
1. Exacerbating the situation was Petitioner’s US Tax Court Case No. 19390-13, the
docket is attached as Appendix 3. J. Ignelzi’s protective order is included in this
Appendix. After a 3-8-2017 undocketed status conference with Senior Tax Court Judge
John Colvin, and IRS Counsel Erin Neugebauer. Petitioner was given 90 days to obtain
iii

all of the information she needed to defend her case. Petitioner has always maintained
her innocence. Petitioner’s almost 100 witnesses were denied by J Ignelzi as well as
her 146 PCRA counts were denied 9-30-2015 at this unordered and undocketed hearing.
The transcript is attached as Appendix 4. J. Ignelzi illegally quashed all but 10
superfluous witness and quashed all subpoenas including anyone and all evidence
relative to PNC Bank; Please see Petitioner Appendix 5 which are the Allegheny
County Common Pleas Court Dockets for Cases No. CP-02-CR-10526-2009 and CP02-CR-0007911-2008C2- attached as Appendix 5.
2. Inexplicably IRS Counsel, Erin Neigebauer has the same subpoena power as Petitioner,
yet IRS Counsel not only did not subpoena any of this evidence, but also concealed
from 8-11-2017 through 1-2-2020 that J. Philip Ignelzi had a protective order from
Petitioner and her subpoenas yet continued and continues to be the presiding judge over
Petitioner’s PA State Probation. PA Parole and Probation has the power and the right
to retain jurisdiction of conflicted parties, i.e. J. Ignelzi, yet permitted him to illegally
incarcerate and continue to preside of Petitioner’s state probation. It is the subject of a
Third Circuit Appeal of US District Court Case No, 2:20-cv-737-cv and Third Circuit
Case No. 20-2704, attached as Appendix 6.
3. After having several subpoenas served upon the Allegheny County District Attorney’s
Office, PNC Bank, etc., Petitioner was again arrested 4-11-2017. During this illegal
incarceration, Allegheny County Detective Patricia Parker testified. 4-18-2017 that she
obtained Petitioner’s deceased Mother’s will, without a signed search warrant. This
transcript excerpt is included as Appendix 7. J. Ignelzi “verbally” ordered Petitioner
to either sell her mother’s home or pay $1,500 per month restitution.

Knowing

Petitioner did not have the funds, J. Ignelzi “VERBALLY” ordered Petitioner to do so.
iv

4. Although Petitioner had a valid appeal of J. Ignelzi’s 2-2017 Court Order with PA
Superior Court, please see Appendix 8, Petitioner’s Docket No. for 422 WDA 2017, J.
Ignelzi said that the Court did not have jurisdiction. J. Ignelzi violated the PA Rules of
Appellate Procedure, i.e. once an Appellate Court accepts a case, the lower court cannot
interfere with it. J. Ignelzi internationally interfered.
5. When Petitioner did not pay the illegal $1500 verbal order, by 6-1-2017, she did not
have the funds to do so, J. Ignelzi had Petitioner illegally arrested for a third time.
Please note, throughout the 422 WDA 2017 case, J. Ignelzi was delinquent in providing
Petitioner’s case records to PA Superior Court. Please see Appendix 3, when J. Ignelzi
received a protective order 8-11-2017 from US Tax Court, Please see line item 65 that
was granted protecting J. Ignelzi from Petitioner’s subpoena, it was after the US Tax
Court denied 8-22-2017 Petitioner’s request for a protective order that J. Ignelzi carried
through on his threat that Petitioner was sent to Torrence State Mental Hospital, without
a competency hearing/ Supposedly Petitioner was diagnosed as Paranoid by a PA
Dentist, Mathew Lang and illegally prescribed drugs for a condition she did not have.
Petitioner never received any reports. Under PA law, only a licensed psychiatrist or
psychologist can make such a determination. The only record that shows Petitioner
was illegally sent to Torrance was J. Ignelzi’s 9-15-2017 Order for Petitioner to be
forced to accept psychiatric medication for a condition she did not have. There never
was a legal psychiatric evaluation, competency hearing concerning Petitioner. Please
see Appendix 5, for the 9-15-2017 order. After 55 days of this living hell, Petitioner
was returned to the Allegheny County jail where she was yet again illegally sentenced
to SCI Muncy, without any charges, for crimes she did not commit and never received
a court order for this illegal incarceration as well. The best guess at this point was she
v

served this time as double jeopardy of her original sentence. No one, including the
Parole hearing Officer would provide any documentation as to why Petitioner was
incarcerated. Informed that she was being “paroled” 8-17-2020 so J. Ignelzi could not
continue to illegally arrest her, the “parole” expired 5-2-2020 again leaving Petitioner
unprotected so she filed the US District Court Case 2:20-cv-737 out of fear that the
same illegal actions would commence yet again to J. Ignelzi. Petitioner sought to file
a Petition with PA Probation and Parole which was returned unopened. The PA
Supreme Court return Petitioner’s emergency filing again undocketed and unopened.
Finally, in desperation, Petitioner filed an emergency Writ with this Court that again
was returned and undocketed.
6. The day after Petitioner was sentenced to SCI- Muncy, 11-6-2017, Appendix 3, Line
Item, 84 , J. Ignelzi, protective order was returned to Tax Court as undeliverable.
Included is the Court Order. The IRS knew it as well as the PA Supreme Court who
filed the protective order motion. All knew Petitioner was illegally incarcerated yet
mailed the protective order to her home address.
7. In explicably, not only did US. District Court Magistrate J. Lisa Lenihan ignore these
egregious violations of Petitioner’s rights concerning the equitable tolling, J. Lenihan
accepted the Commonwealth’s Motion to Dismiss by J. Ignelzi’s accomplice, ADA
Rusheen Pettit. Pettit was present for all 5 illegal 2017 hearings 2-17-2017,4-18-2017,
4-19-2017, 6-7-2017, 7-14-2017 & 11-5-2017. Furthermore, Pettit failed to even have
a valid Certificate of Service of her Entry of Appearance attached as Appendix 9. As
such, how did Pettit even have standing in the case?
8. The Third Circuit has upheld the equitable tolling dismissal adding that there was not
an argument to consider otherwise.
vi

Petitioner spent over 15 months illegally

incarcerated. One would hope it would be considered an egregious miscarriage of
justice, trumping the flawed equitable tolling argument. The 3rd circuit simply ignored
all of it.

I. Questions Presented
Therefore, these are the questions that Petitioner begs the United State Supreme Court to Consider the
following facts for its Writ of Certiorari Review:
A. Petitioner’s home was searched 5-2-2008 by the Allegheny County District Attorney Office
without a valid, signed warrant regarding the Mackin Case. Please see Appendix 10, the DA
inventory list that includes the unsigned Mackin search warrant. The DA’s inventory list is
included proving that there was an “unsigned Mackin search warrant for which Petitioner was
convicted. How could Petitioner be convicted, when all evidence seized was the result of an
illegal search warrant violating Petitioner protective right from illegal search & seizure? It
resulted in 4 felony convictions without 1 of Petitioner’s 6 lawyers raising this constitutional
violation: How could both J. Lenihan and the 3rd Circuit both ignore these glaring miscarriages
of justice?
B. Petitioner’s first 2 attorneys’ Wayne DeLuca and Steve Townsend, law partners of the law firm
Eddy, DeLuca Gravina & Townsend were representing PNC Bank employees Tom Gray, and
Lana Boehm at the same time DeLuca was representing them and was their attorney of the 731-2008 grand jury proceedings commenced after the DA’s illegal search and seizure. DeLuca
continued to represent Boehm and Gray from 2007 through 2015 the Jordan trial. How could
the Allegheny County DA’s Office permit DeLuca and Townsend to represent Petitioner
vii

knowing that they were the very attorneys for PNC Bank employees? Furthermore, how could
J. Ignelzi and J. Lenihan both ignore this glaring conflict of interest and egregious violation of
Petitioner’s constitutional rights? How could the 3rd Circuit ignore these glaring miscarriages
of justice?
C. The Allegheny County DA’s office, Deputy DA, Lawrence Claus, and DA Stephen Zappala
permitted DeLuca and Townsend to represent Petitioner, an egregious conflict of interest, while
the DA’s office was accepting evidence Petitioner and her sibling Charles McCullough? How
could the Allegheny County Common Pleas Court fairly adjudicate these cases, when PNC
Bank is the largest debt holder of Allegheny County, an egregious conflict of interest? J.
Ignelzi had 2 gift rate lines of credits with PNC Bank, DDA Lawrence Claus had 4 gift loans
with PNC Bank and Lead Detective Todd Moses has a six figure position at PNC Bank for
which he obtained this position at the very time he was still an employee of the PA Ethics Act.
Please see their respective Statements of Financial Interest, Appendix 3.

Moses never

submitted one, yet his Linkedln page shows his violation of the PA Ethics Act that he accepted
this position within a year of leaving the DA’s office and failed to file a final SOFI for 2013.
How could both J. Lenihan and the 3rd Circuit ignore these glaring miscarriages of justice?
D. On 5-2-2008, the illegal search warrant, also removed all exculpatory evidence from
Petitioner’s home concerning the Cherup case for which Petitioner was convicted, and illegally
removing all exculpatory evidence for the Mackin case which proved Petitioner’s innocence?
How could both J. Lenihan and the 3rd Circuit ignore this glaring miscarriage of justice?
E. In over 12 years, Petitioner has never seen this evidence. The DAs office was protected by J.
Ignelzi’s conflicted actions, again please see Appendix 5, Petitioner’s Allegheny County
Common Pleas Court Dockets where in fact that all motions for exculpatory evidence and
discovery were denied. PA Superior Court denied these motions as well. J. Ignelzi denied all
vii

Motions for Petitioner’s to obtain her OWN legal files from attorneys Ira Weiss and Tucker
Arensburg, her Cherup and Mackin files respective. Please see Appendix 18, the 10-4-2014
transcripts that details the files issues as well as the missing transcripts from the record, Finally,
the DA’s Office denied this evidence to the United States government in not providing these
files to the IRS.

The DA’s office violated J. Lenihan’s 2-21-2019 order to provide all of

Petitioner’s transcripts, motions and orders that are her reproduced record.

Appendix 12,

documents a supposedly PA Attorney General’s Office ongoing investigation, attached Robert
Drawbaugh’s hand delivered 2-24-2017 letter to Petitioner.
F. Trial J. Jill Rangos was a fact witness in the Jordan case. Attached as Appendix 13 is the 4
investigative reports, 17, 18, 19 & 23, 1-22-2010 along with the inventory list that showed the
Mackin unsigned search warrant. This Appendix includes the 1-22-2019 transcript. She
threatened Petitioner with incarceration if she represented herself and again threatened her with
bond revocation if she fired James DePasquale, as proven in the 3-8-2010 transcript, as
Appendix 14. Although 48 years old at the time of her trial, J. Rangos VERBALLY ordered
Petitioner’s elderly Mother to sell her home to pay James DePasquale $52,500 fee for which
he did not provide a defense. On 10-29-2013 both were notified. Please see this transcript,
Attached as Appendix 15 that includes the undocketed and unscheduled 10-29-2013 “Grazier
Colloquy” instead of the required and scheduled Grazier Hearing. Attached as Appendix 15 in
the 1-25-2018 PA Superior Court Order noting Petitioner’s Docket is void of a Grazier Hearing.
Appendix 15 includes J. Ignelzi admitting his conflict of interest with Petitioner’s family
members.

Furthermore, J. Ignelzi and the DA’s office have refused to provide THIS

TRANSCRIPT along with Petitioner’s jury selection transcript or summary thereof. Presiding
the Grand Jury that indicted Petitioner and her sibling, J. John Zottolo, his niece was a member
of Petitioner’s jury as well as 2 conflicted other jurors, one a manager of a pizza restaurant that
ix

the DA’s office personnel patronized as well as a St Clair hospital employee who knew Lori
Cherup. Attached as Appendix 16 is the juror list. Therefore, how could J. Rangos be the
presiding judge over a case that she was a fact witness in one of the cases concerning both
Petitioner and Petitioner’s sibling Charles McCullough.
G. During Petitioner’s 2010 trial, there was not a colloquy advising her that by taking the stand
Petitioner was waiving her 5th amendment right. Nor any statement by her own attorney
advising Petitioner that she was waiving her 5th amendment right. Please see Appendix 11 that
Petitioner was not advised by counsel until the day she testified. Certainly, this issue must be
proof of the violation of Petitioner’s 5th amendment rights?
H. petitioner’s attorney James DePasquale did not impeach one prosecution witness, nor did he
recall one prosecution witness. On 9-25-2015, DePasquale appeared as a witness for the DA’s
Office to prevent Petitioner from obtaining her grand jury transcripts. DePasquale appeared
for the DA’s Office without being subpoenaed. This transcript is included in Appendix 11.
Although the case was not transferred by a Court Order, to him, J. Zottolo presided of this
illegal and undocketed hearing. DePasquale did not use over 1100 pages of evidence that
Petitioner submitted in her 4-1-2013 PCRA Petitioner. At trial, J. Rangos did not read and give
Petitioner’s jury any instruction. DePasquale did not even have his own set of jury instructions.
Such an issue was again ignored by the trial Court. To this day, Petitioner does not know what
the jury instructions were as J. Rangos did not read them to the jury. And DDA Claus never
gave a copy to defense counsel James DePasquale. Each one of these issues is a separate
violation of Petitioner’s right to due process, yet again, J. Ignelzi, J. Lenihan and now the 3rd
Circuit ignored all this issues and dismissed Petitioner’s case as she failed equitable tolling.
I. The day after Petitioner’s trial, 6-2-2010, Petitioner obtained her files from DePasquale office.
On 7-26-2010, Petitioner filed a Motion for Extraordinary Relief that contains the proof of
x

Petitioner’s innocence. J. Rangos never accepted it for review. In Appendix 5, there are 2
entry of appearances for Public defender Stacey Steiner One7-26-2010 after Petitioner filed
her Motion for Extraordinary relief. Inexplicably another was filed 7-22-2010. Steiner never
accepted Petitioner’s motion for extraordinary relief nor did J. Rangos adjudicate it. Knowing
that Petitioner was innocent, J. Rangos sentence Petitioner to 2 to 4 years in prison and another
10 years of probation.
J. After Petitioner’s sentencing hearing, she was immediately sent to SCI Muncy. Please note
that in December 2010, PA Superior Court issued an order that Petitioner was eligible for bond
pending appeal. Petitioner was never informed of it. How can it not be considered that
Petitioner’s public defenders Allman and Steiner were not advocates for Petitioner. Steiner
never accepted Petitioner’s Motion for Extraordinary Relief.
K. Petitioner was paroled 2-29-2012. After Petitioner, filed her 4-1-2013 PCRA Petitioner, J.
Rangos appointed Allegheny County Conflict Counsel J. Richard Narvin. Narvin attempted
to file a Supplemental PCRA that would have reduced Petitioner’s 1000 page plus document.
On 10-4-2013, Petitioner terminated J. Richard Narvin. J. Rangos recused herself. Attached
is this transcript as Appendix 17. One can see that J. Rangos is yet again attempting to appoint
counsel. Is this transcript not irrefutable proof of J. Rangos’ violation of Petitioner’s right to
self-representation in her case?
L. On 10-29-2013, Petitioner has her first PCRA hearing with J. Philip Ignelzi. He admits on the
record he knows both Petitioner’s sibling Charles McCullough and her Sister-in-law.
Commonwealth J. Patricia McCullough? Isn’t this admission, proof of J. Ignelzi’s conflict of
interest?
M. J. Ignelzi conducts an illegal “Grazier hearing”. It is not docketed. It is not court ordered.
Petitioner was entitled to Court appointed counsel as she was indigent. This Grazier hearing
xi

failure was documents on Petitioner’s Exhibit No. 3 dated 1-25-2018 for which J. Ignelzi never
had a legal Grazier hearing nor did he provide Petitioner with a copy of said order. Isn’t this
miscarriage of justice a violation of Petitioner’s constitutional rights?
N. J. Ignelzi quashed over 90 subpoenas. Petitioner was not allowed to call any of the original
witness, nor DDA Claus or lead detective Todd Moses. Most importantly, J. Ignelzi protected
his debt holder PNC Bank. Both had gifted PNC bank loan. J. Ignelzi’s loans commenced
2013, the year that he accepted Petitioner’s PCRA case. His gifted PNC Bank lines of credit
were 2.99% & 3% while his offer credit had interest rates of 8% to 24% .ADA Claus. Claus
had 4 PNC Bank loans ranging from 0% to 13% while his other credits were as high as 29%,
the year the Jordan case was adjudicated. Moses’ Linkedln account proves his PNC Bank
position occurred at the same time he was working at for the District Attorney. Under the PA
Ethics Act he was not permitted for a year to accept the PNC Bank position
O. Petitioner’s Constitutional Rights were egregiously violated by a biased, conflicted fact finder
and jury, in Petitioner’s Western Pennsylvania US. District Court, namely J. Lenihan. When
Petitioner filed her Petition for Writ of Habeas Corpus for a Section 2254 case, Petitioner
requested that the jurisdiction of this case to assigned to an area outside of Western
Pennsylvania. As both the factor finder and the jury in this Petition, J. Lenihan failed the
criteria of the case Commonwealth v. Stewart, 295A2d 303, 304 (Pa, 1972). It is the minimal
standard of constitutional due process which guarantees to the criminally accused a fair trial
by (an impartial and indifferent fact finder) as was J. Rangos and J. Ignelzi.” Suggested
Standard Criminal Instructions (“Pa.S.S.J.I) apply equally in substance to a trial judge sitting
as the jury. It is inconceivable that a decision would be rendered without any court records to
assist in the review. The Court not only made an egregious trial error but also constitutionally
abused its discretion.
xii

P. Furthermore, after J. Lenihan rendered her decision, it was only after the fact, that Petitioner
learned that J. Lenihan’s personal attorney, was the same as Petitioner’s, Wayne DeLuca.
Under the Rules of Procedures, a Judge cannot even have the appearance of a conflict of
interest.

II.

Table of Contents

I.

Questions Presented

i

II.

Table of Contents........

ii

III.

Table of Authorities....

14

IV.

Petition for Writ of Certiorari

19

V.

Opinions Below............................

19

VI.

Jurisdiction...'................................

19

VII.

Constitutional Provisions Involved

20

VIII.

Statement of the Case.........................

,20 to 28

IX.

Reasons for Granting the Petition.......

28 to 29

X.

Conclusion................................................

30

xii i

APPENDIX

1 6-11-2020 Court Order & 20-1378 Docket for 3rd Circuit
2 2:19-cv-l 15 Docket US District WPA Court
3 19390-13 Docket US Tax Court and Ignelzi Protective Order
4 9-30-2015 Transcript Illegal Hearing Verbal Subpoena Quashing & PCRA Count Denials
5 CP-02-CR-10526-2009 and CP-02-CR-0007911-2008C2 Common Pleas Court Dockets
6 Parole & Ignelzi Jurisdiction Cases 3rd Circuit 20-2704 I 2:20-cv-737 US District WPA Court
7 4-17 & 18-2017 Transcript
8 422 WDA 2017 1797 Wda 2017 PA Superior Court Dockets
9 Pettit’s Entry of Appearance
10 DA Inventory List - Unsigned Mackin Search Warrant
11 Transcript 11-1-2010 & 9-25-2015
12 PA Attorney General 2-24-2017 Letter
13 Investigative reports & 1-22-2010 Transcript
14 Transcript 3-8-2010
15 Transcript 10-29-2013
16 Trial Jury List
17 Transcript 10-4-2013
18 Transcript 10-4-2014
19 11-1 -2009 J. Cappy Death Controversy

III.

Table of Authorities

Cases
1.

The Brady Rule, named after Brady v. Maryland, 373 U.S. 83 (1963), requires
prosecutors to disclose materially exculpatory evidence in the government's
possession to the defense. ... The defendant bears the burden to prove that the
undisclosed evidence was both material and favorable.

2.

At a Grazier hearing, named after Com. v. Grazier, 391 Pa. Superior Ct. 202
(1990), 570 A.2d 1054 the court determines whether the defendant had validly
waived his right to counsel during a PCRA hearing. In addition, the court must
conduct an inquiry to ensure that the defendant is waiving his right knowingly,
voluntarily, and intelligently.

3.

Waiver of Fifth Amendment privilege
The Fifth Amendment privilege is not self-executing. Roberts v. United States,
445 U.S. 552, 559 (1980). The privilege can be waived by failing to invoke it in
a timely manner and by disclosure of incriminating evidence.

4.

Commonwealth v. Stewart, 295A2d 303, 304 (Pa, 1972) as the minimal
standard of constitutional due process guarantees to the criminally accused a fair
trial by (an impartial and indifferent fact finder).”

14

Statutes

28 U.S.C. § 1257

.................... ... ...... .'. ...... ...;. ..........;.......V. . . .

....... 1

PA State Ethics Act. § 1103. Restricted activities
(a) Conflict of interest.—No public official or public employee shall engage in
conduct that constitutes a conflict of interest.
(b) Seeking improper influence.-No person shall offer or give to a public
Official, public employee or nominee or candidate for public office or a member
of his immediate family or a business with which he is associated, anything of
monetary value, including a gift, loan, political contribution, reward or promise
of future employment based on the offeror's or donor's understanding that the
vote, official action or judgment of the public official or public employee or
nominee or candidate for public office would be influenced thereby.
(c) Accepting improper influence.-No public official, public employee or
nominee or candidate for public office shall solicit or accept anything of monetary
value, including a gift, loan, political contribution, reward or promise of future
employment, based on any understanding of that public official, public employee
or nominee that the vote, official action or judgment of the public official or
public employee or nominee or candidate for public office would be influenced
thereby.

15

Title 234 Rule 647. Request for Instructions, Charge to the Jury, and Preliminary
Instructions.
Rule 631. Examination and Challenges of Trial Jurors.
Code of Conduct - Canon 2: A Judge Should Avoid Impropriety and the Appearance of
Impropriety in all Activities
(B) Outside Influence. A judge should not allow family, social, political, financial,
or other relationships to influence judicial conduct or judgment. A judge should
neither lend the prestige of the judicial office to advance the private interests of the
judge or others nor convey or permit others to convey the impression that they are
in a special position to influence the judge. A judge should not testify voluntarily
as a character witness.
(B) Administrative Responsibilities.
(1) A judge should diligently discharge administrative responsibilities, maintain
professional competence in judicial administration, and facilitate the performance
of the administrative responsibilities of other judges and court personnel
(3) A judge should exercise the power of appointment fairly and only on the basis
of merit, avoiding unnecessary appointments, nepotism, and favoritism. A judge
should not approve compensation of appointees beyond the fair value of services
rendered.
(4) A judge should practice civility, by being patient, dignified, respectful, and
courteous, in dealings with court personnel, including chambers staff. A judge
should not engage in any form of harassment of court personnel. A judge should

16

not retaliate against those who report misconduct. A judge should hold court
personnel under the judge’s direction to similar standards.
(6) A judge should take appropriate action upon receipt of reliable information
indicating the likelihood that a judge’s conduct contravened this Code, that a
judicial employee’s conduct contravened the Code of Conduct for Judicial
Employees, or that a lawyer violated applicable rules of professional conduct.
(C) Disqualification.
(1) A judge shall disqualify himself or herself in a proceeding in which the judge’s
impartiality might reasonably be questioned, including but not limited to instances
in which:
(a) the judge has a personal bias or prejudice concerning a party, or personal
knowledge of disputed evidentiary facts concerning the proceeding:
(b) the judge served as a lawyer in the matter in controversy, or a lawyer with
whom the judge previously practiced law served during such association as a
lawyer concerning the matter, or the judge or lawyer has been a material witness;
(c) the judge knows that the judge, individually or as a fiduciary, or the judge’s
spouse or minor child residing in the judge’s household, has a financial interest in
the subject matter in controversy or in a party to the proceeding, or any other
interest that could be affected substantially by the outcome of the proceeding;
(d) the judge or the judge’s spouse, or a person related to either within the third
degree of relationship, or the spouse of such a person is:
(i) a party to the proceeding, or an officer, director, or trustee of a party.
(iii) known by the judge to have an interest that could be substantially affected by

17

the outcome of the proceeding; or
(iv) to the judge’s knowledge likely to be a material witness in the proceeding.
(e) the judge has served in governmental employment and in that capacity
participated as a judge (in a previous judicial position), counsel, advisor, or
material witness concerning the proceeding or has expressed an opinion
concerning the merits of the particular case in controversy.
(2) A judge should keep informed about the judge’s personal and fiduciary financial
interests and make a reasonable effort to keep informed about the personal financial
interests of the judge’s spouse and minor children residing in the judge’s household.

Constitutional Provisions
United States Constitution, Amendment IV

,20 to

30

United States Constitution, Amendment V

20 to

30

United States Constitution, Amendment VI

20 to

30

United States Constitution, Amendment XIV
30

18

20 to

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[Kf For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is^
.
~ ^

ci

l_to

»t. cke.^<00-13^% 3 dmucr

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix CX" to
the petition and is
(jhs&z?CU>/Psy?
[ ] reported at
//J}
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

IV, Petition for Writ of Certiorari
Kathleen McCullough is presently under the custody and control of the
Pennsylvania Board of Probation and Parole. Therefore, she respectfully petitions this
court for a writ of certiorari to review the United States Court of Appeals for the Third
Circuit 6-11-2020 decision.

V.

Opinions Below

The decision by the Third Circuit Court of Appeals for the Third Circuit is
reported as Kathleen McCullough v. The Commonwealth of Pennsylvania, Court Case
No. 20-1378 Decided 6-11-2020. The Docket sheet is Attached in the Appendix 1.
This order upholds which upholds J. Lenihan’s denial of Western Pennsylvania U.S.
District Court Case No, 2:19- cv-115 dated 2-19-2020 attached in Appendix 2 .

VI.

Jurisdiction

Petitioner’s case was denied 6-11-2020.

Petitioner, Kathleen McCullough

invokes this Court’s jurisdiction under 28 U.S.C. § 1257, having timely filed this
petition for a Writ of Certiorari within ninety days of the United States Court of Appeals
for the Third Circuit’s judgment.

19

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
M^No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____
(date) on
(date) in
Application No.__ A.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

VII.

Constitutional Provisions Involved

The violations of Petitioner’s Constitutional Rights which are part of this Writ are as follows:
1. The Fourth Amendment guarantees unlawful search and seizures:
2. The Fifth Amendment imposes restriction on the government’s prosecution of
persons accused of crimes. It prohibits self-incrimination, double jeopardy, and
mandates due process of law. As no citizen may he denied his or her legal rights
and all laws must conform to fundamental, accepted legal principles, as the right of
the accused to confront his or her accusers.
3. The Sixth Amendment guarantees the right of criminal defendants including the
right to a public trial without unnecessary delay, the right to a lawyer including the
guaranteed right of a defendant to represent oneself, the right to an impartial jury,
i.e. independent people from the surrounding community who are willing to decide
the case based on the evidence'and the right to know who your accusers are and the
nature of the charges and evidence against you; and
4. The Fourteenth Amendment is the right to an impartial judge comes from due
process of both the Fifth and Fourteenth Amendment.

A Judge cannot be

considered impartial, if he or she has any underlining interest for the outcome of
the case to any person within its jurisdiction the equal protection of the laws.

VIII. Statement of the Case
Therefore, reference in this Writ of Certiorari includes the above Amendment in the
whole context.

20

•

On 2-11-2020, J. Lenihan closed Petitioner’s case. ADA Pettit’s Motion to Dismiss the
Petition for Writ of Habeas Corpus and dismissed the Petition as not only untimely but also
ignored the egregious miscarriage of justice exception. Furthermore, Petitioner was denied
a Certificate of Appealability. The 3rd Circuit affirmed it. Both violated Petitioner’s Fifth,
Sixth and Fourteenth Amendments rights because, The Answer and the Reply states:

•

(a) “When Required. The respondent is not required to answer the petition unless a judge
so orders. On 2-21-2019, as shown on Petitioner’s Exhibit No. 1, Petitioner’s docket sheet,
(Case number 2:19-cv-cv-00115), J. Lenihan ordered ”..IT IS FURTHER ORDERED that
within twenty-one (21) days of this order, respondents shall respond to the allegations of
the petition for writ of habeas corpus. The District Attorney shall address both the merits
of the petition and the exhaustion of state court remedies. The answer shall comply with
the requirements of Rule 5 of the Rules of Governing Section 2254 Cases in the United
States District Court. The District Attorney shall furnish this court with the state records,
including all relevant transcripts, all briefs filed by petitioner and all written opinions of
the courts. Criminally contemptuously, the District Attorney never followed any of Rule
5, et al. totally violating Rule 5 and J. Lenihan and the 3rd Circuit were complicit to it.

•

(b) Contents: Addressing the Allegations: Stating a Bar.

“The answer must address the

allegations in the petition. In addition, it must state whether any claim in the petition is
barred by a failure to exhaust state remedies, Rules Governing Section 2254 and 2255
Cases procedural bar non-retroactivity, or statute of limitations”.
•

(c) Contents: Transcripts. “The answer must also indicate what transcripts of pretrial, trial
sentencing, or post-conviction proceedings are available, when they can be furnished, and
what proceedings have been recorded but not transcribed. The respondent must attach to

21

the answer parts of the transcript that the respondent considers relevant. The judge may
order that the respondent furnish other parts of existing transcripts or the parts of un­
transcribed recordings be transcribed and furnished. If a transcript cannot be obtained, the
respondent may submit a narrative summary of the evidence”.
•

(d) Contents: Briefs on Appeal and Opinions. “The respondent must also file the answer
of a copy of:

•

any brief that the petitioner submitted in an appellate court contesting the conviction or
sentence or contesting an adverse judgment or order in a post-conviction proceeding, et
al;”

•

In summary: Both the Fifth and the Fourteenth Amendments guarantee Petitioners right to
due process. J. Lenihan did not enforce her own 2-21-2019 Court Order. Please see
Appendix 2 the District Court Docket. The District Attorney’s answer did not respond to
the allegations of the petitions, or the merits of the petition and the exhaustion of state court
remedies. Furthermore, J. Lenihan adjudicated this case without one record violating Rule
4 of the Rules Governing Section 2255 and 2254 cases. It was the Court’s responsibility
to review the Petition prior to issuing an order for the District Attorney, Et al to respond.
The District Attorney violated the Court’s order and J. Lenihan permitted it. Petitioner’s
Constitutional Rights were egregiously violated by a biased, conflicted fact finder and
juror, this Court, violating Petitioner’s Sixth Amendment Rights, the right to an un-biased
Judge and un-biased jury. What the District Attorney submitted was a frivolous Motion to
Dismiss without answering any of Petitioner’s allegations and without providing one
document. It violated Rule 5 of Rules Governing Section 2255 and 2254 cases. The Motion
to Dismiss was solely based on a supposed time tolling issue. How could any reasonable

22

fact finder, i.e. this Court, adjudicate this case WITHOUT 1 PAGE OF ONE
DOCUMENT provided by the District Attorney? Under the Fifth, Sixth and
Fourteenth Amendments, The Court acted as both fact finder and jury in this matter.
It was the duty of the Court to comply with Rule 4.
•

It was the duty of tis Court afforded Petitioner under the Fifth, Sixth and Fourteenth
Amendments to protect Petitioners civil rights. Petitioner’s Constitutional Rights were
egregiously violated by a biased, conflicted fact finder and juror, this Court. As both the
fact finder and the jury, J. Lenihan failed Commonwealth v. Stewart, 295A2d 303, 304 (Pa,
1972) as the minimal standard of constitutional due process guarantees to the criminally
accused a fair trial by (an impartial and indifferent fact finder).” Suggested Standard
Criminal Instructions (“Pa.S.S.J.I) apply equally in substance to a trial judge sitting as fact
finder. The Court not only made an egregious trial error but also constitutionally abused
its discretion, again violating Petitioner’s Fifth and Fourteenth Amendment Rights. The
3rd Circuit affirmed it.

•

Under Rule 4 of Rules Governing Section 2254 and 2255 cases, Preliminary Review:
Serving the Petition and Order states “The clerk must promptly forward the petition to a
judge under the court’s assignment procedure, and the judge must promptly examine it. IF
IT APPEARS FROM THE PETITION AND ANY ATTACHED EXHIBITS THAT
THE PETITIONER IS NOT ENTITLED TO RELIEF IN THE DISTRICT COURT,
THE JUDGE MUST DISMISS THE PETITION AND DIRECT THE CLERK TO
NOTIFY THE PETITIONER. IF THE PETITION IS NOT DISMISSED, THE
JUDGE MUST ORDER THE RESPONDENT TO FILE AN ANSWER, MOTION
OR OTHER RESPONSE WITHIN A FIXED TIME...” (Emphasis Add). By accepting

23

this case for review, I. Lenihan decided that this case was not time barred. Furthermore,
ADA Pettit did not even have a valid entry of appearance. It did not have any
certificate of service. The 3rd Circuit affirmed it.
•

The District Attorney’s fabricated its tolling summary which totally and intentionally
ignored both the illegal actions of ADA Pettit and J. Ignelzi. On 10-29-2013, J. Ignelzi
became the presiding judge in Petitioner’s PCRA case.

Both he and ADA Pettit

orchestrated a bogus/verbal un-docketed Grazier Hearing. On 1-25-2018 (Page 4 of 6), PA
Superior Court caught and exposed their fraud. Attached as Appendix 8 is the PA Superior
Court Case Docket No. 1797 WDA 2017. The Court ordered that within 30 days of its
order, J. Ignelzi was to hold a hearing to determine in Petitioner waiver of counsel was
knowingly, intelligent, and voluntary, pursuant to Commonwealth v. Grazier. Again, J.
Ignelzi was a conflicted and biased fact finder and jury. As both the fact finder and the
jury, J. Lenihan and J. Ignelzi both failed Commonwealth v. Stewart, 295A2d 303,304 (Pa,
1972) as the minimal standard of constitutional due process guarantees to the criminally
accused a fair trial by (an impartial and indifferent fact finder).” Suggested Standard
Criminal Instructions (“Pa.S.S.J.I) apply equally in substance to a trial judge sitting as fact
finder. The Court not only made an egregious trial error but also constitutionally abused
its discretion, again violating Petitioner’s Fifth and Fourteenth Amendment Rights; On 417-2017, PA Superior Court Ordered on the docket, “As the Court is not in possession of
the certified record, the Allegheny County Court of Common Pleas is DIRECTED to note
on its docket that it held a Grazier Hearing and Appellant is proceeding pro se on appeal.
The trial court forwarded an order that states it held a Grazier hear and Appellant is
permitted to proceed pro se. From 10-29-2013 until 4-17-2018, any tolling concerning the

24

PCRA portion of the District Attorney’s office was not constitutionally legal. Four- and
one-half years after the fact, Petitioner was permitted to proceed pro se rending every
hearing, every court action and subsequent appeal an egregious constitutional violated.
However, without a docketed and court ordered hearing the Grazier issue is still unsettled.
As a result of J. Ignelzi, illegally sentencing Petitioner to prison for zero charges, Petitioner
filed this appeal 11-29-2017. It was not until 5-2-2018 that PA Superior Court received the
Court Record.
•

J. Ignelzi intentional refused to provide the court record. PA Superior Court had to order
Common Pleas Court to provide it. J. Ignelzi obstructed the appellate process, again
intentionally. J. Lenihan totally ignored it. Any consideration for tolling ignores J. Ignelzi
and ADA Pettit that Petitioner was illegally arrest 2-2-2017,4-11-2017 and 6-2-2017. The
attached arrest warrants were issued, although they are not docketed at all on Petitioner’s
Common Pleas Court Case Nos. CP-02-CR-10526-2008 and CP-02^CR-0007911-2008,
attached as Appendix 5. There is not a criminal complaint for any of these arrests. The
Court hearing dates 2-17-2017,4-17 & 4-18-2017, 6-7-2017,7-14-2017,11-5-2017 are not
docketed as well. Petitioner was illegally incarcerated 2-2-2017 thru 2-25-2017,4-11-2017
thru 4-18-2017; and 6-2-2017 thru 8-17-2018. More than 15 months illegal incarceration,
how this information could be ignored by this Court is inexplicable. This Court not only
has an obligation but also a duty to be an impartial and an unbiased fact finder.
Furthermore, the Court has the discretion to accept a Section 2254 case beyond any
possible time limit, if there was one, by you accepting this case for review the time bar
issue is moot.

•

As this case was accepted for review, 2-21-2019, Rule 6 of Rules Governing Section 2254

25

and 2255 cases, permits discovery. Therefore, any time during this past year that it took
this Court to render a decision it had the duty and the responsibility to give Petitioner a full
and fair hearing. Any question of constitutional issues, the record was permitted to be
expanded under Rule 7 of Rules Governing Section 2254 and 2255 cases to properly
adjudicate this case. Included in Exhibit 3A was the over 100 witnesses that Petitioner
subpoenaed. Only 10 were permitted to testify. J. Ignelzi verbally ordered a least half of
them quashed including DeLuca and Townsend.
•

Ultimately, under Rule 8 of Rules Governing Section 2254 and 2255 cases (a) “... the judge
must review the answer, any transcripts, and records of state-court proceedings, and any
materials submitted under Rule 7 to determine whether an evidentiary hearing is warranted.
The District Attorney’s violated the Court 2-21-2019 Order. The District Attorney ignored
this Court order, yet the District Attorney was rewarded with an order granting the
Dismissal of this case without ANY RECORD PRODUCTION.

•

On Page 5 of Petitioner’s Exhibit No. 2, The 2-11-2020 memorandum order states “Having
failed to meet AEDPA’s one year state of limitation, the Petitioner can only be saved by
application of the doctrine of equitable tolling (which has been irrefutable address above
as is was the Court’s responsibility to determine equitable tolling of this case prior to
accepting it for review under Rule 4 of Rules Governing Section 2254 and 2255 cases) or
the fundamental miscarriage of justice exception.” The last sentence states, “Thus, the
Petition must be dismissed as untimely.” The Court ignored that egregious miscarriage of
justice documented in this Certificate of Appealability

•

J. Lenihan has a conflict of interest. Petitioner found the attached 11-1-2009 Tribune
Review article concerning the death of ex-Chief Justice Ralph Cappy and J. Lenihan.

26

Please read the entire article. It is Appendix 19. The attorney that representative J. Lenihan
was Wayne DeLuca, J. Lenihan violated Canon 2 of the Federal Judicial Code of Conduct.
She should not have accepted this case.
•

US District Court of Western PA has an egregious conflict of interest in
adjudicating Petitioner’s case. On 2-4-2019, when she filed her petition,
she requested that the case was moved to another jurisdiction. Chief
Magistrate Cynthia Eddy is directly connected to Deluca and Townsend.
Her husband, John Eddy is their law partners. Unfortunately, so is J.
Lenihan. She owes her career to DeLuca. In May of 2008, it occurred at
Petitioner’s Preliminary hearing before Magistrate Elaine McGraw.
DeLuca informed Petitioner that the District Attorney was going to indict
Petitioner about Shirley Jordan and Mackin Engineering. It was a year
before it happened. DeLuca knew because he was assisting the District
Attorney to protect PNC Bank, the Allegheny County Political
Establishment, and Ralph Cappy’s family member Ody Mackin. Townsend
gave Petitioner’s personal case files to the District Attorney. Thus, denying
Petitioner her own information to defend herself. ADA Claus was bought
and paid for by PNC Bank was a most willing accomplice. DeLuca,
Townsend, DePasquale ADA Claus are complicit. As both the fact finder
and the jury, J. Lenihan failed Commonwealth v. Stewart, 295A2d 303, 304
(Pa, 1972) as the minimal standard of constitutional due process guarantees
to the criminally accused a fair trial by (an impartial and indifferent fact
finder).” Suggested Standard Criminal Instructions (“Pa.S.S.J.I) apply

27

equally in substance to a trial judge sitting as fact finder. The Court not
only made an egregious trial error but also constitutionally abused its
discretion, again violating Petitioner’s Fifth and Fourteenth Amendment
Rights.

IX.

REASONS FOR GRANTING THIS PETITION

1. This case was based on an unsigned Mackin search Warrant. Every judge, every, lawyer
that represented me DeLuca, Townsend, DePasquale, Steiner, Allman, and Narvin ignored
that this case was based an illegal search and seizure of documents that would have proven
Petitioner’s innocence. They failed to seek a Motion to Dismiss;
2. The grand jury was convened based on illegally obtained information and egregious
misrepresentations to its panel. DeLuca represented PNC employees, Boehm and Gray
while DeLuca’s law partner Townsend represented me all violating Petitioner’s civil rights
The Allegheny County District Attorney Office colluded with both DeLuca and Townsend
to permit both DeLuca and Townsend to represent Petitioner all the while they were
representing prosecution witnesses Boehm and Gray:
3. Trial Judge Jill Rangos was conflicted and a biased jurist because she was personal friend
of Petitioner’s disinherited sister-in-law Patricia McCullough as well as a fact witness in
the Jordan case;
4. PCRA Judge Ignelzi received 2 gifted PNC Bank lines of Credit loans at 2.99%»and 3%
when his closest creditor charged over 8%. Ignelzi denied all Motions and subpoenas
related to PNC Bank and well as 90 of the 100 subpoenas that were served. Judge Ignelzi
reduced 146 counts to a denial of Petitioner’s PCRA case.

28

5. DDA Claus had gifted loans from PNC Bank as well and Lead Detective Joseph Todd
Moses who received a six figure pay for play job from PNC Bank at the same time he was
still and employee of the DA’s Office;
6. On 10-29-2013, conflict PCRA Judge Ignelzi (conflicted due to his friend with Petitioner’s
disinherited sister-in-law PA Commonwealth Judge Patricia McCullough who was
disinherited by Petitioners Mother, Corinne McCullough also received a $10,000
contribution from Judge Rangos’ husband John Rangos, their friendship was so deep,
Petitioner’s trial judge;
7. On 10-29-2013, Judge Ignelzi and ADA Pettit held an illegal Grazier hearing that was not
docketed, scheduled by Court Order and verbal order that Petitioner’s had waived her right
to counsel;
8. Thus, rendering all subsequent orders illegal, violating Petitioner’s civil rights, and
rendering all Appeals doomed to failure for the same violations;
9. Judge Ignezli and Petit held a bogus Brady Hearing without producing the unsigned
Mackin search warrant and any of the exculpatory that would clear Petitioner. The United
States government was denied Petitioner’s case files so deep is their corruption;
10. Judge Ignelzi illegally incarcerated Petitioner 3 times without arrest warrants or charges.
Although ordered on 1-25-2018 by PA Superior Court to conduct an on the record Grazier
Hearing as documented in PA Superior Court Cases 422 WDA 2017 and 1797 WDA 2017,
the hearing and his subsequent order never appeared on Petitioner’s PA Superior Court
dockets or case no. CP-02-CR -0007911-2008 and CP-02-CR-0010526-2009.

29

X.

CONCLUSION

For the foregoing reasons, Petitioner respectfully requests that this Court to issue a
writ of certiorari to review the judgment of the United State Court of Appeals for the
Third Circuits judgement.

Petitioner has lost over 12 years to her life because of the criminal collusion in her case. It started
with DeLuca as a conflicted attorney, the same attorney who protected J. Lenihan. If a case based
on an unsigned search warrant, is not a miscarriage of justice, what is?
Respectfully submitted,

Kathleen McCullough, Rjo Se
107 Fairway Landings Drive
Canonsburg, PA 15317
L
724-288-2715
Email: katel5792@gmail.com

November 5, 2020

30

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

